Inspection Report I-96-02
DEPARTMENT OF JUSTICE
OFFICE OF THE INSPECTOR GENERAL
INSPECTIONS REPORT
RETENTION OF DRUG EVIDENCE IN DRUG
ENFORCEMENT ADMINISTRATION LABORATORIES
February 1996
Report Number I-96-02
TABLE OF CONTENTS
Executive Digest
Introduction
Objective
Scope and Methodology
Background
DEA Drug Storage
Practices
DEA Drug
Evidence Storage Costs
Drug Evidence
Tracking
Results of the Inspection
DEA Drug Evidence
Vaults Should Be Adequate to Meet Near Term Drug Evidence
Storage Requirements
Current Vault
Capacity
DEA Should Remove Exhibits
From Its Drug Evidence Vaults
Many Older Drug
Exhibits Are Maintained in DEA Laboratory Vaults.
Some Drug Exhibits Have
Been in DEA Vaults Without Activity For Many Years
Exhibits Retained for
Completed Cases and Non-Drug Evidence Take Up Space
Recommendations
DEA Should Better Control
Drug Evidence Exhibits Signed Out to Court for Extended
Periods
Recommendation
DEA Should Automate
Generation of Disposition of Drug Evidence Forms to Improve
Efficiency and Reduce the Paperwork Burden on DEA Operations
Recommendation
Figure 1 - Exhibits and Cases, by Lab
Figure 2 - DEA Drug Evidence Inventory,
All Regional Labs
Figure 3 - Exhibits - All Regional Labs,
Aging by STRIDE Original Record Date
Figure 4 - Exhibits by Lab, Seized Between
10 and 20 Years Ago
Figure 5 - Exhibits by Lab, Seized More
Than 20 Years Ago
Figure 6 - DEA Drug Evidence Signed Out
Table 1 - Changes in Drug Evidence
Inventories, by Lab
Table 2 - Vault Storage Capacity and Usage,
by Lab
Table 3 - Exhibits Destroyed Over the Past
5 Years
Table 4 - Exhibits With No Activity for
More Than 10 Years
Table 5 - Exhibits Signed Out For More Than
2 Years, by Lab
APPENDIX I - Management's Response to Draft Report Report -
NOT INCLUDED IN THIS HYPERTEXT VERSION.
APPENDIX II - Office of the Inspector General's Analysis of
Management's Response Report - NOT INCLUDED IN THIS HYPERTEXT
VERSION.
EXECUTIVE DIGEST
In response to a request from Drug Enforcement Administration
(DEA) management, the Office of the Inspector General,
Inspections Division, has completed a review of policies and
practices relating to the retention of drug evidence at DEA
laboratories. DEA officials expressed concern that the laboratory
vaults are becoming crowded and were looking for ways to reduce
the amount of old drug evidence stored in these vaults.
We have concluded that DEA has adequate drug evidence storage
capacity for the near term. Only one facility, the South Central
Laboratory, is likely to experience overcrowding in the near
future. The remaining laboratories have experienced declines in
the number of exhibits in drug inventories since 1990, or have
sufficient unused vault space to accommodate near term growth in
the number of drug exhibits.
DEA plans to meet long term storage requirements with a 5-year
laboratory replacement program, which includes new, high capacity
drug storage vaults. These new vaults should accommodate future
drug evidence storage needs at these laboratories. If DEA's plans
to replace these laboratories are delayed for budgetary or other
reasons, or should the number of exhibits in DEA inventories
increase unexpectedly, several of DEA's drug evidence vaults
could become overcrowded in the future.
DEA can remove a significant number of the exhibits currently
maintained in DEA drug evidence vaults. Almost 8 percent of the
exhibits in DEA drug evidence vaults have been stored there for
more than 10 years and many of these have not been moved from the
vaults during that time. At a minimum, DEA should provide case
status information to United States Attorneys' Offices' staff for
these 10-year or older cases. Cases that are no longer viable
should be closed and the related exhibits should be removed from
DEA drug evidence vaults. DEA can remove at least another 7
percent of the exhibits in its drug vaults, including exhibits
related to cases that have already been completed and those that
do not contain drug evidence.
During the inspection, we found laboratory records showing
drug evidence exhibits signed out to DEA enforcement agents for
extended periods. According to laboratory records, almost one in
four exhibits signed out had been signed out for more than 2
years. Many of these exhibits were apparently transferred to
state or local agencies by DEA agents who did not provide notice
of the transfer to laboratory personnel responsible for
maintaining drug evidence inventories. DEA should take steps to
strengthen accountability for exhibits signed out for extended
periods and to ensure laboratory records are updated as needed.
DEA also should automate the process for generating drug
evidence disposition forms. Relatively minor changes to the
automated inventory system to allow for automatic generation of
these forms should improve the efficiency of the process. These
changes will also reduce the paperwork burden on enforcement
operations staff who are currently generating these forms
manually.
INTRODUCTION
The Office of the Inspector General (OIG), Inspections
Division, has completed an inspection of Drug Enforcement
Administration (DEA) policies and practices relating to the
retention of drug evidence at DEA laboratories. The DEA requested
this inspection based upon the concern that DEA laboratory vaults
are becoming crowded and a desire to find ways to reduce the
amount of old drug evidence stored in DEA vaults.
OBJECTIVE
In response to DEA's request for this inspection, we designed
inspection steps to find out if: (1) vault space is adequate in
DEA laboratories, (2) DEA has taken steps to destroy drug
evidence for which it has authority under current rules, and (3)
opportunities exist for DEA to reduce administrative costs
associated with the storage and handling of drug exhibits,
especially old drug exhibits.
SCOPE AND METHODOLOGY
On this inspection, we reviewed existing DEA policies and
practices concerning the retention of drug evidence. To assess
the impact of current policies and practices, we:
-- Interviewed a variety of DEA officials, from both DEA
headquarters and field offices, and officials of the
Executive Office for United States Attorneys and selected
United States Attorneys' Offices;
-- Analyzed data from DEA's automated evidence inventory
system and DEA's enforcement case status system;
-- Inspected each DEA drug evidence vault, and examined
randomly selected drug evidence exhibits within each vault;
and
-- Reviewed case file information for selected exhibits.
Our random sample of drug evidence exhibits included a total
of 1,590 exhibits nationwide out of 88,593 exhibits stored as of
February 1995 in DEA's seven regional laboratories. We also
reviewed case file information for selected exhibits in our
sample to determine whether DEA is maintaining drug exhibits for
cases previously concluded. Our sample of 1,590 exhibits included
43 exhibits for which the case status code in the automated case
status system was listed as "normally closed," 73 for
which the case status was listed as "administratively
closed," and 32 exhibits for which a "data base
record" was created in the automated system to reflect that
the exhibit was seized prior to implementation of DEA's automated
case status system. [ Cases should be "normally closed"
in the system when all investigative and judicial activity has
ended and all drug and non-drug evidence has been destroyed or
removed from DEA vaults. "Administratively closed"
refers to cases which have been closed for some other reason. For
instance, cases transferred to task forces are usually closed in
the system and reopened under new task force case numbers. ]
We used the number of exhibits in DEA drug evidence vaults as
an indicator of the total amount and volume of evidence contained
in each vault. Although exhibits do range in size, DEA does not
generally store bulk evidence in the drug evidence vaults. Bulk
quantities of drugs (other than marijuana) beyond the amounts
required for prosecution are routinely destroyed with the
approval of the United States Attorneys' Offices. Bulk marijuana
is stored outside the laboratories in separate facilities under
the control of enforcement offices. The vast majority of exhibits
we found in DEA vaults were stored in plastic, heat-sealed
envelopes. These envelopes are generally of a uniform size, i.e.,
9 inches by 16 inches by 2 inches or less. DEA stores a
relatively small number of larger drug exhibits in boxes.
Although we reviewed numerous DEA storage and retention
policies, including policies related to the destruction process,
we did not review the destruction process itself. We also did not
evaluate: (1) DEA policies and practices related to vault
security or the chain-of-custody process required for drug
evidence in DEA's possession, (2) retention of bulk marijuana
evidence that is stored in separate enforcement office
warehouses, and (3) the DEA Special Testing Laboratory in McLean,
VA. The Special Testing Laboratory provides a variety of
specialized scientific, research, and forensic laboratory support
services for both foreign and domestic law enforcement agencies,
and does not store large amounts of drug evidence.
Because the OIG Audit Division recently issued a report on DEA
Laboratory Operations, we relied on the findings of this audit
for information on the overall cost of laboratory operations.
BACKGROUND
As a routine part of criminal investigations, DEA seizes
illicit drugs, which are then used as evidence in the prosecution
of drug traffickers and users. After seizure, these drugs are
sent to DEA laboratories for analysis and are stored in DEA drug
evidence vaults for safekeeping.
DEA operates seven regional drug laboratories located in:
· Washington, D.C. (Mid-Atlantic),
· New York, NY (Northeast),
· Miami, FL (Southeast),
· Chicago, IL (North Central),
· Dallas, TX (South Central),
· San Diego, CA (Southwest), and
· San Francisco, CA (Western).
DEA's seven regional drug laboratories serve DEA and other
federal agencies, including the Federal Bureau of Investigation
and the United States Customs Service. These laboratories also
provide drug analysis services to many state and local law
enforcement agencies. As of February 1995, DEA's drug vaults in
the seven regional laboratories contained 88,593 exhibits related
to 15,287 cases (see Figure 1).
Figure 1
DEA Drug Storage
Practices
DEA stores all drug evidence in secure facilities. When
drugs are seized, DEA personnel package the drug evidence into
exhibits and DEA chemists analyze each exhibit. After the
exhibits are analyzed by DEA chemists, the drugs are retained in
the laboratory vaults except during the time they are used in
court, or until they are no longer needed as evidence and are
removed for destruction. DEA does not destroy drug evidence
exhibits unless approval is first obtained from the United States
Attorney's Office responsible for the case.
Some non-drug evidence items also are stored in the laboratory
vaults. Such evidence includes various items, packages, and
containers that may contain trace amounts of illegal drugs, as
well as other substances and chemicals that have evidentiary
value. DEA stores most non-drug evidence in separate secure
storage facilities that are not under the control of the DEA
laboratories.
DEA Drug Evidence
Storage Costs
The cost of laboratory vault space makes up only a very small
part, less than 3 percent, of the total expense DEA incurs to
operate its seven regional laboratories and one Special Testing
Laboratory. DEA currently pays about $450,000 in annual lease
costs for secure, drug evidence vault space. This does not
include "in-process"vault space in which exhibits are
stored short-term during the time they are analyzed by DEA
chemists. In a recent report, the OIG Audit Division listed total
DEA laboratory program costs, including space rental, personnel,
and all other expenses at $17.4 million in fiscal year 1994,
exclusive of headquarters activities.
The OIG Audit Division report concluded that DEA laboratories
generally "were housed in aging, outmoded, or obsolete
facilities." The Audit Division found "instances of
overcrowding; inadequate fume hood space; inadequate ventilation
for laboratory personnel, exhibits and chemicals; and
insufficient storage space for exhibits, other controlled
substances, and chemicals."
Recognizing these conditions at several facilities, DEA
expects to replace the Special Testing and Research Laboratory
and four regional laboratories: the Mid-Atlantic, Southwest,
Southeast, and Western laboratories. The new laboratories, as
planned, will include higher capacity drug storage vaults. These
new vaults should readily accommodate any increases in DEA drug
storage requirements at these laboratories.
Direct funding to replace these five laboratories would cost
about $60 million over a 5-year period, according to DEA
officials. However, DEA plans to commercially lease new
laboratory facilities, built to DEA specifications, and to
amortize construction costs over the life of long-term leases.
This arrangement should significantly reduce DEA's up-front
expenditures and would spread the cost of construction over a
period of 20 years or longer.
Drug Evidence Tracking
DEA laboratories maintain a data base, the System to Retrieve
Information from Drug Evidence (STRIDE), which they use to track
evidence through the laboratory system from receipt through
destruction. STRIDE also contains information on evidence at each
laboratory, such as: exhibit status, results of analysis,
analysis turnaround time, and staff resource expenditures.
DEA laboratories conduct routine annual inventories of the
drug evidence stored in the DEA drug evidence vaults. During
these annual inventories, laboratory officials check the contents
of the vault against a computerized listing of evidence exhibits
produced from STRIDE. Discrepancies are subsequently resolved or
investigated and appropriate action taken. Similar drug vault
inventories are also performed each time a laboratory official,
or any individual who has access to the vault, retires or leaves
the job.
Also on an annual basis, laboratory officials formally provide
DEA enforcement officials with listings of cases for which there
is drug evidence in the laboratory vaults. Enforcement agents are
then required to assess the status of each of their cases and
determine if any cases related to specific drug evidence can be
closed. During the annual inventory process, enforcement agents
are required to: consult with representatives from the United
States Attorneys' Offices, notify the laboratory of the status of
each case, and generate a DEA Form 48 (Disposition of Drug
Evidence) for exhibits related to concluded cases. DEA
regulations provide that cases should not be officially closed
until all criminal and civil judicial proceedings have been
concluded, and all exhibits related to these cases have been
destroyed.
DEA is installing a bar code system, the Laboratory Evidence
Management System (LEMS) that will be used to speed up the
evidence inventory process. LEMS will create an automated record
that is expected to replace the manual Evidence Accountability
Record (DEA Form 307) currently maintained for every drug
exhibit.
RESULTS OF THE
INSPECTION
DEA DRUG EVIDENCE VAULTS
SHOULD BE ADEQUATE TO MEET NEAR TERM DRUG EVIDENCE STORAGE
REQUIREMENTS
The number of drug evidence exhibits in DEA's regional
laboratory vaults has grown less than 3 percent between 1990 and
1994 (see Figure 2).
Given this slow growth in the number of exhibits, existing DEA
drug vaults should be adequate in the near term.
Figure 2
Trends in the number of exhibits in DEA drug evidence vaults
have varied by regional laboratory. Between the end of calendar
year (CY) 1990 and the end of CY 1994, the number of exhibits
declined in three of the seven regional laboratories, and
increased in the other four.
Table 1 reflects the changes in the number of exhibits stored
at each laboratory over this 4-year period.
TABLE 1
Changes in
DEA Drug Evidence Inventories
All Regional Laboratories
Laboratory
End of Year Exhibits 1990
End of Year Exhibits 1994
Percent of Change 1990
through 1994
Mid-Atlantic
5,127
4,381
-15%
Northeast
22,346
20,168
-10%
Southeast
9,615
11,845
23%
North Central
12,671
13,954
10%
South Central
9,797
11,418
17%
Southwest
15,041
12,577
-16%
Western
11,920
13,662
15%
Source: STRIDE - Data Extracted 2/13/95
Current Vault Capacity
Total vault space and shelf space for each DEA regional
laboratory is listed in Table 2.
TABLE 2
LOCATION
TOTAL VAULT SPACE
(SQUARE FEET)
VAULT SHELF SPACE
(SQUARE FEET)
SHELF SPACE IN USE
(PERCENTAGE)
Mid-Atlantic
615
1,044
90%
Northeast
2,500
3,388
90%
Southeast Off Site Storage
543 5,000
1,074 N/A
90% N/A
North Central
1,580
4,065
75%
South Central
2,155
3,094
95%
Southwestern
1,965
3,241
95%
Western
1,658
3,270
66%
Totals:
16,016
19,176
85%
Of the laboratories that are filled within 5 or 10 percent of
capacity, all but the South Central Laboratory experienced a
decline in the number of drug exhibits between 1990 and 1994.2
In the South Central Laboratory, crowded conditions exist despite
the additional capacity of several movable shelving units now in
use for heat-sealed exhibits. High capacity, moveable shelving
units have also been installed in the North Central Laboratory,
DEA's newest laboratory. These movable shelving units have helped
eliminate overcrowding in the North Central facility. DEA
officials told us that using high capacity, movable shelving in
other laboratory vaults is not feasible because the added weight
of these shelving units would exceed weight bearing limits.
[ 2Although the Southeast laboratory has only 10
percent unused space in its drug vault, the laboratory maintains
a large, secure off-site ware house which provides sufficient
space to keep up with future drug storage requirements.]
Although this is not an ideal situation, exhibits are
sometimes stored using available vault floor space when the
inventory of exhibits exceeds available shelf space in the vault.
We do not recommend long-term storage of exhibits in this way
because cluttered vault aisles can be hazardous and make
retrieving and accounting for exhibits more cumbersome and
time-consuming.
The planned replacement of four regional laboratories, which
will include higher capacity drug storage vaults, should easily
meet DEA's future drug storage requirements at these locations.
However, the South Central Laboratory drug vault is already
filled to near capacity, is not scheduled for replacement, and
may experience significant overcrowding in the future. In
addition, if DEA's plans to replace these laboratories are
delayed for budgetary or other reasons, or should the number of
exhibits in DEA inventories increase unexpectedly, several of
DEA's drug evidence vaults could become overcrowded. DEA should,
therefore, adopt more aggressive space management practices to
avoid overcrowding.
DEA SHOULD REMOVE
EXHIBITS FROM ITS DRUG EVIDENCE VAULTS
DEA can significantly reduce the number of exhibits contained
in its vaults by removing exhibits for old drug cases that are no
longer viable, exhibits related to completed cases, and
"non-drug" exhibits.
Many Older Drug Exhibits
Are Maintained in DEA Laboratory Vaults
As of February 1995, DEA was storing almost 7,000 exhibits,
related to about 1,100 cases, which were seized more than 10
years previously (see Figure 3). Our analysis of STRIDE data also
identified 576 exhibits, related to 117 cases, that were seized
more than 20 years ago.
Figure 3
The number of exhibits 10 years old and older varied
considerably by laboratory. Only 2.4 percent of the exhibits in
the Mid-Atlantic Laboratory were 10 or more years old, while
almost 15 percent were 10 years or older in the Northeast
Laboratory. The number of drug exhibits seized 10 or more years
ago, and 20 or more years ago, by laboratory, are reflected in
Figures 4 and 5.
Figure 4
Figure 5
Older drug exhibits remain in DEA evidence vaults for several
reasons.
-- In a few cases, lengthy judicial processes, including
appeals and civil litigation, may still require retaining
these older exhibits for an additional period of time.
-- Some of these exhibits are related to completed cases,
i.e., cases in which all judicial proceedings have come to an
end, but for which the appropriate paperwork was not
processed to request destruction of drug exhibits.
-- Most of these exhibits are related to cases in which
one or more subject continues to be a fugitive
Some Drug Exhibits
Have Been in DEA Vaults Without Activity for Many Years
Our analysis of STRIDE data shows that DEA does destroy many
older drug exhibits, i.e., exhibits over 10 years old. Of more
than 125,000 exhibits destroyed by DEA laboratories over the past
5 years, DEA destroyed over 8,000 exhibits (almost 7 percent of
exhibits destroyed) that hzad been seized more than 10 years
before destruction. Table 3 depicts analysis of exhibits
destroyed at each regional laboratory over the past 5 years.
TABLE 3
Exhibits Destroyed by Each
Laboratory
Over the Past 5 Years
Laboratory
Exhibits Destroyed
Exhibits Over
10 Years Old
Percent of Total
Mid-Atlantic
8,418
1,075
12.7%
Northeast
21,767
2,538
11.7%
Southeast
14,786
671
4.5%
North Central
14,661
1,137
7.8%
South Central
21,657
592
2.7%
Southwest
25,783
1,220
4.7%
Western
18,660
1,146
6.2%
TOTALS
125,732
8,379
6.7%
Source: STRIDE - Data Extracted 2/13/95
However, a significant number of older drug exhibits have had
no activity for many years, and will likely remain in DEA vaults
indefinitely unless DEA works with United States Attorneys'
Offices to close these cases. The number and proportion of
exhibits that have had no activity for over 10 years, by
laboratory, can be found in Table 4.
TABLE 4
DEA Drug
Evidence Exhibits
With No Activity for 10 + Years
As of February 1995
Laboratory
Exhibits
With No
Activity 10+
Years
Percent of
All Open
Exhibits
Number of Related
Cases
Mid-Atlantic
109
2.4%
28
Northeast
2,986
14.5%
456
Southeast
538
4.49%
152
North Central
551
4.26%
92
South Central
397
3.32%
72
Southwest
746
6.0%
97
Western
231
1.63%
39
Totals
5,558
6.27%
936
Source: STRIDE - Data Extracted 2/13/95
The DEA Agent's Manual requires enforcement personnel to meet
regularly with United States Attorney's Office personnel to
discuss the status of pending cases. DEA agents do not typically
use such meetings with United States Attorney's Office officials
to discuss whether older drug cases are still viable, or whether
drug exhibits in these cases should be maintained. Most United
States Attorney's Office officials we spoke with emphasized that
decisions to destroy drug evidence exhibits should only be made
based upon a case-by-case review. United States Attorney's Office
personnel stated that to make informed decisions, they need DEA
enforcement offices to provide them with specific case file
information including: the identity of any remaining fugitives
(and the likelihood of their apprehension), the total quantities
of drugs involved, and the availability of witnesses.
Case-by-case reviews of old drug cases during the annual
inventory process should establish whether each case is viable,
worth prosecuting from the perspective of the United States
Attorney's Office, and likely to require drug evidence to
prosecute. Based upon our analysis, this would require the review
of case information for a relatively small number of older cases
-- at present, a total of less than 1,100 cases nationwide.
Overcrowding in some laboratory vaults, especially the Northeast
and Southwest laboratories, could be significantly alleviated
through the review and closure of older cases.
Exhibits Retained
for Completed Cases and Non-Drug Evidence Take Up Space
Our analysis of STRIDE and case status system data identified
8,391 exhibits in DEA drug evidence vaults that were for cases
listed as closed, or for cases missing case status information.
DEA personnel should have reviewed pertinent case information
during annual inventories, and determined that many of these
8,391 exhibits were from completed cases. Based upon our review
of case file information, we determined that DEA can eliminate at
least 2 1/2 percent of all exhibits by removing those remaining
in the drug evidence vaults for cases already completed. [ Our
analysis of case file information revealed that about 50 percent
of the exhibits in DEA vaults for cases coded as "normally
closed" in the case status system should be removed from the
vaults because these cases have been concluded. About 10 percent
of the exhibits for cases coded as "administratively
closed," and about 30 percent of exhibits for which there is
no related case status information, can be removed because the
related cases have been concluded.] This would require DEA
personnel to review about 1,800 case files nationwide.
Our analysis of STRIDE data also revealed that 4.6 percent of
all exhibits in DEA's drug evidence vaults are
"non-drug" exhibits, or exhibits in which drugs were
expected but not detected in analysis. To free up space in the
drug evidence vaults, we believe DEA should consider removing all
exhibits that do not contain drug evidence. These exhibits could
be photographed and destroyed, or if needed, stored with other
non-drug exhibits for the case.
RECOMMENDATIONS
The Inspections Division recommends that the DEA
Administrator:
1. Direct DEA enforcement office officials to work with
United States Attorneys' Offices staff to assess the
viability of all old drug cases, and promptly prepare all
necessary paperwork to expedite the destruction of unneeded
drug exhibits.
2. Direct DEA enforcement offices to review the status
of all cases for which there are exhibits in the vaults and
which have a closed or missing case status code in DEA's case
status system. Destruction requests for exhibits from cases
determined to be concluded should be prepared promptly and
these cases should be formally closed.
3. Implement a policy for the relocation of exhibits
from the drug evidence vaults that do not contain drug
evidence.
DEA SHOULD BETTER
CONTROL DRUG EVIDENCE EXHIBITS SIGNED OUT TO COURT FOR EXTENDED
PERIODS
During the course of our field work, we identified exhibits at
each laboratory that have been signed out to enforcement agents
for extended periods. DEA officials told us many of these drug
exhibits are probably not in the possession of the agent who
signed for them. These officials suggested that exhibits are
sometimes transferred to state and local jurisdictions for
non-federal prosecutions and that laboratory records had
apparently not been updated for some transfers. To improve
accountability for these exhibits, laboratory records should be
updated to reflect all such transfers. Exhibits signed out to DEA
agents for extended periods that are not in the possession of
other law enforcement agencies, or of state and local courts,
should be promptly returned to DEA vaults for storage.
Our analysis of STRIDE data identified exhibits at each
laboratory signed out to enforcement agents for extended periods.
Nationwide, 16 percent of all exhibits signed out to DEA agents
have been signed out for 6 to 12 months; 6 percent for 12 to 18
months; 2 percent for 18 to 24 months; and 23 percent have been
signed out for more than 24 months. Almost 600 exhibits have been
signed out for more than 2 years nationwide (see Figure 6).
Figure 6
The total number of exhibits signed out to enforcement agents,
and the number and percentage signed out for more than 2 years,
at each laboratory, can be found in Table 5.
We found no evidence that existing DEA procedures provide for
periodic confirmation that exhibits signed out to agents are
still in the agent's possession. We reviewed case file
information for a handful of exhibits signed out for extended
periods. In each instance, we found that case files contained
documentation of transfer to another law enforcement agency, but
that laboratory officials were not properly notified.
TABLE 5
LABORATORY
LOCATION
NUMBER OF EXHIBITS
SIGNED OUT
NUMBER OF EXHIBITS
SIGNED OUT 2 YEARS OR MORE
PERCENT OF EXHIBITS
SIGNED OUT 2 YEARS OR MORE
Mid-Atlantic
157
10
6.4%
Northeast
477
195
40.9%
Southeast
201
23
11.4%
North Central
544
63
11.6%
South Central
321
17
5.3%
Southwestern
495
203
41.0%
Western
287
63
22.0%
Totals
2,482
574
23.1%
Source: STRIDE - Data Extracted 2/13/95
RECOMMENDATION
The Inspections Division recommends that the DEA
Administrator:
4. Ensure that exhibits signed out by DEA enforcement
agents for extended periods are accounted for and that
laboratory records are updated for all exhibits permanently
transferred.
DEA SHOULD AUTOMATE
GENERATION OF DISPOSITION OF DRUG EVIDENCE FORMS TO IMPROVE
EFFICIENCY AND REDUCE THE PAPERWORK BURDEN ON DEA OPERATIONS
During our visits to each DEA regional laboratory, we
identified a significant opportunity to improve the efficiency of
the paperwork process required to destroy drug evidence and
reduce the paperwork burden on DEA enforcement operations.
Existing procedures require DEA enforcement personnel to
prepare Disposition of Drug Evidence forms (DEA-48s) to authorize
laboratories to destroy drug evidence exhibits at the conclusion
of a case. In some offices, agents prepare the forms themselves.
Secretaries and group assistants in large offices often do the
typing. Most of the completed DEA-48s we found in case files were
typed manually.
In some offices, enforcement personnel manually examine hard
copy case files to identify all drug exhibits for each completed
case. In more computer-oriented offices with access to the STRIDE
system, staff query STRIDE for a list of exhibits related to each
case. Staff in several DEA laboratories reported agents and other
enforcement personnel frequently contact them to obtain a list of
exhibits related to completed cases, or to find out whether
enforcement had already sent DEA-48s for specific exhibits. One
laboratory manager told us he had set up a data base on his
personal computer to track DEA-48s received so that he could
answer such enforcement inquiries more efficiently.
Laboratory personnel also noted that DEA-48s with incorrect
exhibit numbers are received from time to time and this paperwork
must be corrected. At a minimum, this requires a phone call or
two. In some offices, enforcement staff send corrected DEA-48s to
the laboratory.
We believe automating the generation of DEA-48s will improve
the efficiency of the process, and reduce the paperwork burden on
DEA operations. Based upon our testing, we found that STRIDE
contains a reliable listing of drug exhibits associated with each
case. We discussed the idea of automating generation of DEA-48s
with laboratory and enforcement managers and found little
resistance to the idea. In several instances, the idea was
enthusiastically received.
A standard computer report could easily be developed and
implemented to automatically create all necessary DEA-48s for any
case number entered into the system. Automatic generation of
DEA-48s by enforcement personnel would not require any changes to
existing management controls. An additional record type could be
created that would indicate a DEA-48 had been generated for an
exhibit, the date on which this occurred, and the identity of the
individual generating the form.
RECOMMENDATION
The Inspections Division recommends that the DEA
Administrator:
5. Strongly consider making the necessary changes to
the STRIDE system to generate DEA Form 48s automatically and
provide enforcement personnel with limited access to STRIDE
to generate DEA-48s.
#####